ORiQIWAI
Supreme Court, U.S.
FILED

7054

No.

JAN 2 5 2021
OFFICE OF THE CLERK

I wfhe/ Supreme Court of th&UviCtecL States
Paul E. Weber Petitioner,
vs.
Amy Amott Quinlan, Delaware State Court Administrator;
John Carney, Governor; Matt Denn, Attorney General;
Andrew J. Vella, Deputy Attorney General; Jan R. Jurden, President Judge, Delaware
Superior Court; Henley T. Graves, Sussex County Superior Court Judge; William C.
Carpenter, Jr, New Castle County Superior County Judge; Margaret Rose Henry,
Delaware Senate Majority Leader; Peter Swartzkopf, Delaware House Speaker; John
Doe; Jane Doe,
Respondents.

On Petition for a Writ of Certiorari to
The Third Circuit Court of Appeals
No. 18-2559

PETITION FOR WRIT OF CERTIORARI
Paul E. Weber
VCC- SBI 162469 - W Bldg.
1181 Paddock Road
Smyrna, DE 19977

received
feb -2 a®

«Sggg3K

QUESTIONS PRESENTED
Is the refusal of state officials to afford a defendant existing postconviction remedies
actionable under 42 U.S.C. §1983?

Is 42 U.S.C. §1983 the proper remedy to challenge state officials who deprive a
criminal defendant any mechanism whatsoever, including an appellate process,
postconviction remedy, or collateral process, to challenge a constitutionally infirm
conviction?

If the answer to the aforementioned question is “no,” what is the proper procedure
for a criminal defendant to seek redress for the denial of his constitutional rights to due
process and a fair trial where the state authority refuses to implement any remedy for
review?

RELATED COURT PROCEEDINGS
1. U. S. District Court for the District of Delaware
Weber v. Quinlan, et al.
Civ. A. No. 18-637-LPS
Opinion and Order
June 11,2018
2. U. S. District Court for the District of Delaware
Weber v. Quinlan, et al.
Civ. A. No. 18-637-LPS
Opinion and Order
July 11,2018
3. U. S. District Court for the District of Delaware
Weber v. Quinlan, et al.
Civ. A. No. 18-637-LPS
Opinion and Order
July 24, 2018
4. Third Circuit Court of Appeals
Weber v. Quinlan, et al.
No. 18-2559
Opinion and Order
March 12, 2019 & November 8,2019
5. Third Circuit Court of Appeals
Weber v. Quinlan, et al.
No. 18-2559
Opinion and Order
October 13,2020

PARTIES TO THE PROCEEDINGS
Paul E. Weber Petitioner,
vs.
Amy Amott Quinlan, Delaware State Court Administrator;
John Carney, Governor; Matt Denn, Attorney General;
Andrew J. Vella, Deputy Attorney General; Jan R. Jurden, President Judge, Delaware
Superior Court; Henley T. Graves, Sussex County Superior Court Judge; William C.
Carpenter, Jr, New Castle County Superior County Judge; Margaret Rose Henry,
Delaware Senate Majority Leader; Peter Swartzkopf, Delaware House Speaker; John
Doe; Jane Doe,
Respondents.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

10

CONCLUSION

38

INDEX TO APPENDICES
APPENDIX A Weber v. Quinlan, Civ. A. No. 18-637-LPS
(D.Del. June 11, 2018)
APPENDIX B Weber v. Quinlan, Civ. A. No. 18-637-LPS
(D.Del. July 11,2018)
APPENDIX C Weber v. Quinlan, Civ. A. No. 18-2559
(D.Del. Nov. 8,2019)
APPENDIX D Weber v. Quinlan, No. 18-2559
(D.Del. Oct. 13,2020)

i

TABLE OF AUTHORITIES
Cases
Albright v. Oliver, 510 U.S. 266. 271 (1984)
Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40. 59 (1999)
Armstrong v. Manzo, 380 U.S. 545. 552 (1965)

24
13
38

Baker v. McCollan, 443 U. S. 137. 144, FN. 3 (1979)
Beavers v. Saffle, 216F.3d918. 923 (10th Cir. 2000)
Bill Johnson's Restaurants, Inc. v. NLRB, 461 U.S. 731. 741 (1983)
Boddy v. Connecticut, 401 U.S. 371. 374 (1971)
Bounds v. Smith, 430 U.S. 817. 825 (1977)
Bowling v. Parker, 882 F.Supp. 2d 891. 901 (E.D. Ky. 2012)
Brown v. Gallegos, 58 Fed. Appx. 781. 782 (10th Cir. 2002)
Buchanan v. United States ex rel. Reis, 379 F.2d 612 (5th Cir. 1967)
Buck v. Davis, 137 S.Ct. 759. 777-78 (2017)

24
18,27
21
35
3,17,19,35
34
38
18,27
34

Carafas v. Lavallee, 391 U.S. 234. 238 (1968)
Carey v. Saffold, 536 U.S. 214. 219 (2002)
Carter v. Illinois, 329 U.S. 173. 174-76 (1946)
Case v. Nebraska. 381 U.S. 336. 337-47, 338 n. 13 (1965)
Christopher v. Harbury, 536 U.S. 403. 412 (2002)
City ofSacramento v. Lewis, 523 U.S. 833. 847 n.8 (1988)
Coleman v. Thompson, 501 U.S.722. 756 (1991)
Connecticut Bd. ofPardons v. Dumschat, 452 U.S. 458, 463(1983)
Cruz v. Hauck, 475F.2d475. 476 (5th Cir. 1973)
Curran v. Woolv. 104A.2d771. 774 (1954)
Custis, 511 U.S. at 497

30
13
3,17
3,13,18
19
27
37
6
19
30,32
39

D.A. 's Office for the Third Judicial Circuit, 557 U. S. 502. 69 (2009)
Daniels v. United States, 532 U.S. 374. 381-82 (2001)
Daniels v. Williams, 474 U.S. at 331
District Attorney's Office for the Third Judicial Circuit v. Osborne,
129 S.Ct. 2308 (20091
Douglas v. California, 372 U.S 353, 356 (1963)
Dowd v. United States, 340 U.S. 206. 209-10 (1951)

3,14,17,21
20
22
4,5
35
37

Enterprise Irrigation Dist. v. Canal Co., 243 U.S. 157. 164 (1917)
Evans v. Sec’yofDept. of Corr., 645 F.3d 650. 660 (3d Cir. 2011)
Evitts v. Lucy, 469 U.S. 387 (1985)
Ex parte Watkins, 28 U.S. (3 Pet) 193. 202-03 (1830)

18,27
27
3,11,37
36

Finley, 481 U.S. at 559
Ford v. Georgia, 498 U.S. 411.423 (1991)

6
18,27

ii

Gibson v. Jackson, 578 F.2d at 1048-49
Greer v. Klem, 591F.3d672 (3d Cir. 2010)
Grier v. Klem, 2011 U.S. Dist. LEXIS 120453 (W.D.Pa. Sept. 19,2011)
Grier v. Erie County DA, 2011 U.S. Dist. LEXIS 120751
(W.D.Pa. Oct. 19,2011)
Griffin v. Illinois, 351 U.S. 12, 18-19 (1956)
Grigsby v. Mabry, 637F.2d 525 (8th Cir. 1980)

5
40
18,27

Hart v. Eyman, 458 F. 2d 334, 340 (9th Cir.)
Harvey v. Horan, 285 F.3d 298. 299 (4th Cir. 2002)
Heck v. Humphrey, 512 U.S. 477 (1994)
Henry v. United States, 525 Fed Appx. 67. 69 (3d Cir. 2013)
Herrera v. Collins, 506 U.S. 390, 408 (1993)
Hewitt v. State, 2014 WL 5020251 at *1 (Del.)

18,27
40
3,4
37
20,39,40
34

In re Davenport, 147F.3d 605. 611 (1st Cir. 1998)
In re Dorsainvil, 119F.3d 245. 248 (3rd Cir. 1997)
In re Murchison, 349 U.S. 133.136 (1955)
In re Nichols, 2004 WL 1790142 at *1 (Del. Super.)

20
11
23
34

James v. State, 1998 Del. C.P. LEXIS 39 (Del. Com. PI.)
Johnson v. Avery. 393 U.S. 483 (1969)
Johnson v. Preferred Professional Inc. Co., 2014 Del. Super. LEXIS 28
(Del. Super. Feb. 17,2014)
Jones v. Anderson, 183 A.2d 177. 179 (Del. 1962)
Jones v. United States, 526 U.S. 227. 249 (1999)
Jutowski v. Twp. ofRiverdale, 904 F.3d 280. 294, n. 17 (3d Cir. 2018)

33
35

Lewis v. Casey, 518 U.S. 343. 350,351 (1996)
Lyng v. Automobile Workers, 485 U.S. 360. 370 (1988)

19,21
21

Martinez v. Ryan, 566 U.S.l. (2012)
Matthews v. Eldridge, 424 U.S. 319. 333 (1976)
McCarthy v. Madigan, 503 U.S. 140, 153 (1992)
McCloskey v. Zant, 499 U.S. 467. 519 (1991)
McGautha v. California, 402 U.S. 183.255 (1971)
McKane v. Durston, 153 U.S. 684. 687 (1894)
Medina v. California, 505 U.S. 437. 446 (1992)
Monroe v. Pape, 365 U.S at 175-76
Montgomery v. Louisiana. 136 S.Ct. 718 (2016)
Mooney v. Holohan. 294 U.S. 103. 113 (1935)
Mullane v. Central Hanover Tr. Co., 339 U.S. 306. 313 (1950)
Murray v. Giarratano, 492 U.S. 1. 8 (1989)

36,37
3,20,38
19
36
23
17,36
5,24
3,22,28
8
31
38
21

Nelson v. Colorado, 137 S.Ct. 1249. 1255-63 (2016)

26

iii

18,27
3,4
5

34
30,34
38
17

Ohio Adult Parole Authority v. Woodard, 523 U.S. 272 (1998)
Osborne at 2320-21
Oyter v. Boles, 36 U.S. 448.452 (1962)

25
5
38

Parratt, 451 U.S at 537
Pennsylvania v. Finley, 481 U.S. 55L 555-557 (1987)
Peugh v. United States, 86 L.Ed.2d 84. 89 (2013)
Pettiford v. United States, 587 F.Supp.2d 709. 712 (D.Md. 2008)
Poe v. Ullman, 367 U.S. 497, 542 (1961)
Precunei v. Martinez. 416 US. 396 (1974)
Price v. Johnston, 334 U.S. 266. 283 (1948)

22
5,17,21,35
37
39
28,39
35
31

Redding, 129 S.Ct. at 2643
Reilly v. City ofAtl. City, 532 F.3d 216 (3d Cir. 2008)
Richards v. Jefferson County Ala., 517 U.S. 793 (1996)
Robinson v. Pratt, 497F.Supp. 116.122 (D.Mich. 1980)
Ross v. Moffitt, 417 U.S. 600 (1974)

6
14
24
29
35

Sample v. State, 2014 WL 193761 *1 (Del.)
Screws v. United States, 325 U.S. 91 (1945)
Skinner v. Switzer, 562 U.S. 521 (2010)
Smith v. Bennett, 365 U.S. 708 (1961)
Spencer v. Kemna, 523 U.S. 1. 7-8 (1998)
Sibron v. New York, 392 U.S. 40. 55 (1968)
Staretz v. Ishee, 389 F.Supp. 2d. 858 (S. D. Ohio 2005)
State v. Guthman, 619 A.2d 1175, 1178 (Del. 1993)
State v. Johnson, 2006 WL 3872849 (Del. Super)
State v. Reed, 2014 WL 7148921 at *3 (Del. Super)
State v. Remedio, 108 A.3d 326 (Del. Super. 2014)
State v. Slowman, 866 A.2d 1257. 1265 (2005)
State v. Walls, 2006 WL 2950491 at *2

34
4
4
35
38
38
28
34
34
34
34
34
34

Tafflin v. Levitt, 493 U.S. 455, 458-59 (1990)
Tennessee v. Lane, 541 U.S. 509. 533 (2004)
Terrell v. Morris, 493 U.S. L 2 (1989)

34
19
18,27

United States v. Daniels, 523 U.S. 374. 380-81 (2001)
United States v. Dunegan, 251 F.3d 477. 478 (3d Cir. 2001)
United States ex rel. Herman v. Claudy, 350 U.S. 116.119 (1956)
United States v Jackson, 57 F.3d 1012. 1018 (11th Cir. 1995)
United States v. Jones, 332 F,3d 688. 695 (3d Cir. 2003)
United States v. Mendoza-Lopez, 481 U.S. 829. 837-38, 841 (1987)
United States v. Moore, 208 F.3d 41L 413 (2d. Cir. 2000)
United States v. Napolitan, 830 F.3d 161. 165-66 (3d Cir. 2016)
United States v. Roman, 989F.2d 1117, 1120 (11th Cir. 1993)
United States v. Turner, 793 F.Supp.2d 495. 511 (D.Mass. 2011)

9
30
18
39
38
26
38
20
39
39

iv

Ward v. Commissioners ofLove County, 253 U.S. 17.22 (1920)
Weber v. State, 971 A.2d 135 (Del. 2009)
Weber v. State, 213 A.3d 1195 (Del. 2019)
Weber v. State, No. 592, 2001, 2002 WL 31235418 (Del. Oct. 4 2002)
Wilkinson v. Ohio Dept, ofRehab. & Corr., 544 U.S.74 (2005)
Wolffv. McDonnell, 418 U.S. 539. 579 (1974)
Woodward v. Ngo, 548 U.S. 81.104 (2006)

18,27
15
16
29
24
19
14

Yick Wo v. Hopkins, 118 U.S. 356.370 (1886)
Young v. Ragen, 337 U.S. 235. 239 (1949)
Young v. Red Clay Consolidated School District, 122 A,3d 784 (Del Ch. 2015)
Youngberg v. Romeo, 457 U.S. 307,316 (1982)

19
18
33
8

Zinermon v. Burch, 494 U.S. 113 (1990)

22,27

Statutes and Rules
The Uniform Postconviction Procedure Act, 69 Harv. L. Rev. 1289 (1956)

13

5 Del.C. §504(b)(2)

39

7 Del.C. §§1730-1740

38

11 DeLC §4214(a)(2004)

39

21 Del.C. §4183

39

Delaware's Constitution, Statutes, Rules, Customs & Practice

15

Super. C.CrimR.2

30

Super.C.CrimR. 37

30

Super.C.CrimR. 61

30

Del.Supr.CT.R. 26

30

1998 Del. C.P. LEXIS 39 (Del. Com. PL).

33

U.S.C.A. I

3

U.S.C.A. V

3

U.S.C.A. VI

3

U.S.C.A. VX

3

v

3

42 U.S.C.§1983
Ancillary
Reitz, C.J., Federal Habeas Corpus: Postconviction Remedies for
State Prisoners, 108 U. Pa. L. Rev. 461, 469-70 (1960)

13

Effect of the Federal Constitution in Requiring State Postconviction Remedies,
53 Colum. L. Rev. 1143 (1953)

13

State Postconviction Remedies, 61 Colum L. Rev. 681 (1961)

13

State Postconviction Remedies and Federal Habeas Corpus, 40 N. Y.U. L.
Rev. 154 (1965)

13

State Postconviction Remedies and Federal Habeas Corpus, 12 Wm. & Mary L.
Rev. 149 (1970)
13
The Uniform Postconviction Procedure Act, 69 Harv. L. Rev. 1289 (1956)

13

American Bar Association Standards Relating to Postconviction Remedies (1978) 13
National Commissioners on Uniform State Laws, Uniform Postconviction
Procedures Act (1966)

13

Bandon L. Garrett & Lee Kovarsky, Federal Habeas Corpus: Executive
Detention and Post-Conviction Litigation (2013)

18

7 Wayne R. LaFave, Jerold H. Israel, Nancy J. King & Orin S. Kerr, Criminal
Procedure §28.3 (3d ed. 2007 & Supp. 2012-13)

18

Ronald P. Sokol, Federal Habeas Corpus 341-43 (2ed. 1969)

18

James A. Albert & Gregory A. Brobeck, Habeas Corpus - A Better Remedy in
Visitation Denial Cases, 41 Maine L.Rev. 239 (1989)

18

Marc M. Arkin, Speedy Criminal Appeal: A Right Without a Remedy, 74 Minn.
L.Rev. 437 (1990)

18

Vivian Berger, Herrera v. Collins: The Gateway ofInnocence for DeathSentenced Prisoners Leads Nowhere, 35 Wm. & Mary L.Rev. 943 (1994)

18

John Flannery, Habeas Corpus Bores a Hole in Prisoners ’ Civil Rights Actions An Analysis ofPreiser v. Rodriguez, 48 St. John’s Rev. 104 (1973)
18

vi

Luis Kutner, World Habeas Corpus and Humanitarian Intervention, 19 Val. U. L.
Rev. 593 (1985)
18
Warren Lupel, Recanted Testimony: Procedural Alternatives for Relief
from Wrongful Imprisonment, 35 DePaul L.Rev. 477 (1986)

18

Robert Plotkin, Rotten to the “Core of Habeas CorpusThe Supreme Court
and the Limitations of a Prisoner’s Right to Sue; Preiser v. Rodriguez,
9Crim. L. Bull. 518(1973)

18

Martin A. Schwartz, The Preiser Puzzle: Continued Frustrating Conflict
Between the Civil Rights and Habeas Corpus Remedies for State Prisoners,
37 DePaul L.Rev. 85 (1988)

18

Robert J. Sharpe, Habeas Corpus Extradition and the Burden of Proof: The
Case of the Man Who Escaped from Devil’s Island, 49 Cambridge L. J.
422 (1990)

18

Scott Singer, “To Be or Not to Be: What is the Answer? The Use of Habeas
Corpus to Attack Improper Prison Conditions, 13 New Eng. J. onCrim. Civ.
Confinement 149 (1987)

19

Development in the Law - Federal Habeas Corpus, 83 Harv. L.Rev. 1038,
1055-62, 1216(1970)

19

The Effect of Violations of the Interstate Agreement on Detainers on Subject
Matter Jurisdiction, 54 Fordham L.Rev. 1209 (1986)

19

Federal Habeas Corpus Review ofNonconstitutional Errors; The Cognizability
of Violations of the Interstate Agreement on Detainers, 83 Colum. L.Rev.
975 (1.983)

19

Habeas Corpus, Section 1983 and State Prisoners ’ Litigation Preiser v.
Rodriguez in Retrospect, 1977 U. Ill. L.F. 11953

19

State Prisoners ’ Suits Brought on Issues Dispositive of Confinement: The
Aftermath ofPreiser v. Rodriguez and Wolff v. McDonnell, 11 Colum. L.Rev.
742 (1977)

19

Benjamin Vetter, Habeas, Section 1983, and Post-Conviction Access to DNA
Evidence, 71 U.Chi. L.Rev. 587 (2004)

19

Jordan M. Steiker, James W. Marcus, & Thea J. Posel, The Problems ofRubberstamping in State Capital Habeas Proceedings: A Harris County Case Study,
55 Hous. L.Rev. 889(2018)
19
Carlos M. Vauez & Stephen I. Vladeck, The Constitutional Right to
vii

Collateral Postconviction Review, 103 Va. L. Rev. 905 (2017)

19

Hertz, R. & Liebman, J. S., Federal Habeas Corpus Practice and Procedure,
Part II: Timing of Federal Habeas Corpus Petition

23

State Remedies; Volume 1: Chapter 7: State Remedies: Professional and
Constitutional Issues: §7.1 “Full and Fair” Proceedings [b] Constitutional
Considerations and Fn. 94.

23

viii

OPINIONS BELOW
Weber v. Quinlan, Civ. A. No. 18-637-LPS
(D.Del. June 11,2018)
Weber v. Quinlan, Civ. A. No. 18-637-LPS
(D.Del. July 11,2018)
Weber v. Quinlan, Civ. A. No. 18-637-LPS
(D.Del. July 24,2018)
Weber v. Quinlan, No. 18-2559
(D.Del. March 12,2019)
Weber v. Quinlan, No. 18-2559
(D.Del. October 13,2020)

1

JURISDICTION
The United States Court of Appeals for the Third Circuit decided this case
on March 12, 2019. (Appx. C)
A timely petition for rehearing was decided on October 13, 2020. (Appx. D)
This Court has jurisdiction pursuant to 28 U.S.C. §1254(1).

2

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED
• U.S.C.A. I
V
VI
VX
•

42U.S.C. §1983

• Greer v. Klem, 591 F.3d. 672 (3d Cir. 2010)(state postconviction procedures
fundamentally inadequate and violative of due process mandate injunctive relief.)
• Evitts v. Lucy, 469 U.S. 387 (1985)(once state implements postconviction
procedures, even if it is determined they had no obligation to act, due process
protections vest to protect rights in those state-created actions).
• Monroe v. Pape, 365 U.S. 167 (1961)(primary purposes of §1983 is to provide
remedy “against those representing the State in some capacity were unable or
unwilling to enforce a state law”).
• Heck v. Humphrey, 512 U.S. 477 (1994)(§1983 civil rights action allowed if it
does not call into question the validity of conviction or sentence).
• D.A. 's Office for the Third Judicial Circuit, 557 U.S. 502 (2009)(Federal courts
may upset State’s postconviction relief procedures if they are fundamentally
inadequate to vindicate substantive rights).
• Case v. Nebraska, 381 U.S. 336 (1965)(State must afford criminal defendants
clearly defined method by which they may raise claims of denial of federal
rights.)
• Carter v. Illinois, 329 U.S. 173 (1946)(Due Process requires state to afford
opportunity to challenge intrinsic fairness of criminal process).
• Bounds v. Smith, 430 U.S. 817 (1977)(Due Process requires claim of
constitutional violation be recognized by the state court.)
• Matthews v. Eldridge, 506 U.S. 309 (1993)(Due Process requires an opportunity
to be heard “at a meaningful time in a meaningful matter”).
3

STATEMENT OF THE CASE
Weber was denied his rights to a fair trial. Notwithstanding Delaware's laws
mandating a postconviction process and the federal requisite for vindication of
violations of the rights enumerated in the Bill of Rights, this Court held the absence
of any authority authorizing a §1983 complaint for the deprivation of a
postconviction process is fatal to his claim. The Third Court of Appeals framed the
narrative incorrectly and its overly narrow and parochial holding misconstrues
Weber's claim in toto. There must be more “hesitancy [which] is in part a recognition
of the important role federal courts have assumed in elaborating vital constitutional
guarantees against arbitrary or oppressive state action. We want to leave an avenue
open for recourse where we think the federal power ought to be vindicated.”1
This Court allows challenges to postconviction procedures under §1983.2
This Court has previously allowed a 42 U.S.C. §1983 claim for injunctive relief to
proceed because the postconviction procedures afforded by the state were
fundamentally inadequate and violative of the right to procedural due process.3
Relying on District Attorney's Office for the Third Judicial District v. Osborne ,4 this

1 Screws v. United States, 325 U.S. 91 (1945).
2Skinner v. Switzer, 562 U.S. 521 (2010).
3Greer v. Klem, 591 F.3d672 (3d Cir. 2010).
4129 S.Ct. 2308 (2009).
4

Court recognized that the Heck rule5 did not apply where postconviction relief
procedures are inconsistent with the “traditions and conscience of our people” or
with “any recognized principle of fundamental liberty.”6 (Significantly, however,
the Heck rule is also inapplicable for a distinct reason. The relief Weber seeks — a
process to challenge a conviction — would not render his conviction or sentence
invalid.) On remand, the Grier court noted Osborne's holding that the “right to due
process is not parallel to a trial right but... must be analyzed in light of the fact he [
] has only a liberty interest in postconviction relief.”7
To be sure, “[s]tates have no [federal constitutional] obligation” to provide
postconviction relief proceedings for their prisoners.8 However, when states do
provide such procedures, due process applies. For example, in district Attorney's
Office for Third Judicial District v. Osborne,9, the Court faced a 1983 claim
challenging a denial of due process in a state postconviction reliefproceeding arising
out of an effort to secure release based on DNA evidence. The Court observed that

5Heck v. Humphrey, 512 U.S. 477 (1994)(A state prisoner cannot raise a 1983 civil rights
claim relating to the validity of his conviction or sentence until the conviction has been
reversed, expunge, declared invalid, or called into question by the issuance of a writ of
habeas corpus.)
6Osbome at 2320-21, quoting Medina v. California, 505 U.S. 437. 446 (1992). See also
Grier v. Klem, 2011 U.S. Dist. LEXIS 120453 (W.D.Pa. Sept. 19, 2011), adopted in part
Grier v. Erie County DA, 2011 U.S. Dist. LEXIS 120751 (W.D.Pa. Oct. 19, 2011).
7Id.
8Pennsylvania v. Finley, 481 U.S. 55T 557 (1987).
9129 S.Ct. 2308 (2009).
5

a “state created right can, in some circumstances, beget yet other rights to procedures
essential to the realization of the parent right. ”10 Certainly, states have “more
flexibility in deciding what procedures are needed in the context of postconviction
relief. [W]hen a State chooses to offer help to those seeking relief from convictions,
due process does not dictat[e] the exact form such assistance much assume.11
Nonetheless, due process continues to apply, and 1983 may be utilized to address
appropriate violations.
Thus, assuming Weber had a state created right to assert his claims in a state
habeas proceeding, a denial of due process in that proceeding would be actionable.
Moreover, this is one of those exceedingly rare cases in which the existence
of the plaintiffs constitutional right is so manifest that is clearly established by broad
rules and general principles. That is, this ought to have been a member of that class
of “easiest cases” that according to Judge Posner, “don't even arise.”12
For what it’s worth, several legislators of the Delaware General Assembly
have concluded Weber was denied a fair trial as well as his right to a process to

10Id. at 2319 (quoting Connecticut Bd. ofPardons v. Dumschat, 452 U.S. 458.
463(1983)).
11Id. at 2320 (quoting Finley, 481 U.S. at 559).
l2Redding, 129 S.Ct. at 2643.

6

vindicate that violation. These substantive violations, fairly and properly presented
to the state courts but never adjudicated, are too numerous to recount here.
“Everyone” knows Weber is innocent. The complainant, who made the allegation
months after the alleged offense, and hours after Weber served her with a Chancery
Court complaint and ended their engagement, has recanted the accusation.
Amazingly, the trial court did not even order restitution in this forgery/theft
case because factually the complainant suffered no financial or other loss, a
circumstance which is most likely unprecedented in the annals of criminal justice in
a “theft” case. Weber will have to serve 25 years in prison as a direct result of this
most dubious and de minis conviction. And although Delaware’s constitution,
statutes, rules, customs and practices mandate a postconviction process, and the
United States Constitution guarantees citizens the right to seek redress for violations
of constitutional magnitude, the state has deprived Weber any of these fundamental
due process guarantees thus rendering his fair trial rights illusory and worthless. In
effect, this Court’s decision is a de facto abjuration of Weber’s constitutional rights
in their entirety and his disenfranchisement as a United States citizen. This is not
zealous advocacy or hyperbole or embellishment — it is the hard and cold truth. Yet
Weber is not only deprived of any process in which to seek vindication of these most
egregious constitutional violations, but according to the lower Court’s decision he
may not even invoke the Fourteenth Amendment via 42 U.S.C. § 1983 — a reflection
7

of congressional resolve to enforce the very constitutional rights deprived to Weber
— to remedy the dearth of any process to vindicate these constitutional violations.
The decision undermines this Court’s dictates, such as Montgomery v.
Louisiana, which requires state collateral review courts to give retroactive effect to
new substantive rules.13 How is it possible to say in one breath that the state must
give retroactive effect but say in their next breath the state does not have to actually
enforce a process to provide that effect? In point of fact, this Court does not endorse
such a non sequiter at all. Due process protects from arbitrary governmental action
and survives the criminal conviction.14 The conundrums the lower Court's decision
presents are infinitesimal. In fact, the Court is saying despite the fundamental due
process right to an adequate record of the proceedings, it is OK to immediately
destroy the transcript without any review. With all due respect, deference, and
humility, Weber says humbug. A serious and substantial claim of the violation of
one's fair trial rights that is wholly ignored by state officials — indeed, intentionally
ignored by the officials who knowingly circumvented the state laws, rules and
processes that would have allowed constitutional review of Weber's conviction —
would shock any American's conscience.
“It is beyond dispute that convictions must be
obtained in a manner that comports with the
Constitution...it necessarily follow[s]...our system
13136 S.Ct. 718(2016).
14Youngberg v. Romeo, 457 U.S. 307. 316 (1982) (Powell, J. concurring in part).
8

affords a defendant convicted in state court
numerous opportunities to challenge the
constitutionality of his conviction.15

15UnitedStates v. Daniels, 523 U.S. 374.380-81 (2001)
9

REASONS FOR GRANTING THE PETITION
The panel decision conflicts with core principles of fundamental fairness.
This Court's observation that “Weber has not cited, and we have not located, any
authority supporting a proposition that a defendant who has no means of challenging
his conviction in state court may assert a claim for relief under the United States
Constitution in a §1983 action” is enigmatic and off-point. Weber is at a distinct
disadvantage because the Court fails to take into account that Delaware’s
Constitution, laws, rules, practices and customs mandate an adequate postconviction
remedy to vindicate Weber’s substantive rights which were violated. The United
States Constitution requires the states to establish a process to vindicate the
deprivation of federal rights. The Supreme Court is adamant some measure of due
process extends to the postconviction process. And 42 U.S.C. §1983 provides for a
means of vindicating federal rights established elsewhere, primarily in constitutional
law. As these concerns were not issues in the District Court and not briefed in this
Court, Weber now finds himself without any remedy to vindicate the deprivation of
his substantive fair trial and due process rights. And this Court's decision will
encourage more states to violate a citizen’s right to a fair trial without fear that they
will have to answer for their unconstitutional acts and omissions. Surely this is not
the Court's decision or intent? As this Court has said, “[A] thorny constitutional
issue” could result if “no other avenue ofjudicial review [were] available for a party
10

who claims that s/he is factually or legally innocent as result of a previously
unavailable statutory interpretation[.]”16 This matter presents such an issue.
The Deprivation of any Means for Redress
to Vindicate the Violation of Weber’s Constitutional
Due Process and Fair Trial Rights is Cognizable Under §1983
In a tribunal riddled with errors, Paul Weber was denied his constitutional
rights to due process and a fair trial. The resulting consequences for Weber were
myriad and substantively grave. But seemingly, all was not lost. In recognition that
our system ofjustice makes mistakes, a plethora of remedies have been implemented
by the State of Delaware for the aggrieved to seek redress for such constitutional
violations. Of course, there are; the fruits of our Revolution included the protections
of due process of law and a fair trial. Indeed, in the unfathomable event these
cherished constitutional rights were abrogated, we would face the certain and forlorn
prospect of a second revolution. In any event, once Delaware chose to implement
postconviction procedures, even ifit is determined they had no obligation to act, due
process protections vest to protect Weber's rights in those state-created actions.11
Disturbingly, Paul Weber finds himself trapped in a bureaucratic blender ensnared
in a parallel universe. In Paul Weber's dystopian world, he was denied any process

uIn re Dorsainvil, 119F.3d 245. 248 (3rd Cir. 1997).
17Evitts v. Lucy, 469 U.S. 387 (1985).

11

to vindicate the infringements of his due process and fair trial privileges. Weber’s
state government officials (the appellees’), recognizing the unique series of unusual
circumstances as an anomaly, expressed no outrage and shirked their duty to ensure
Weber was afforded his constitutional rights.
Weber was denied in toto all traditional remedies for vindication of his due
process and fair trial rights. Not necessarily for justice, but instead only for an
opportunity to be heard. Weber’s vehicle towards that end was 42 U.S.C. §1983,
which was designed to hold “liable” “every person who [ ] causes [ ] any citizen [ ]
the deprivation of any rights, privileges, or immunities secured by the Constitution.”
By depriving Weber any opportunity to vindicate the denial of his rights to due
process and a fair trial, the appellees further violated Weber's rights to due process
and access to the courts under the Privileges and Immunities Clause of Art. IV
§2(1)1; the right to petition the government for redress of grievances under
Amendment I; fair trial rights under Amendment VI; personal enumerated rights
under Amendment IX, and Delaware's obligation to enforce Weber's due process
rights under Amendment XIV, §1 the United States Constitution.
Notwithstanding the appellee’s

deliberate indifference to Weber's

constitutional rights, the Third Circuit Court of Appeals held:
“Weber has not cited, and we have not located, any
authority supporting the proposition that a defendant who
has no means of challenging his conviction in state court
may assert a claim for relief under the United States
12

Constitution in a § 1983 action [ ].”
In the first instance and demonstrated herein, part of the difficulty in
discovering relevant authorities concerning the requirement for remedies for redress
of constitutional violations is because they were so ingrained in the judicial
consciousness that generations have now passed without recent significant caselaw
on the right.18
Weber has demonstrated a violation of his procedural due process rights as he
has shown the existence of an interest protected by the Constitution’s due process
clause and an inadequacy of available procedures to challenge the state's actions.19
It is not surprising there appears to be a dearth of any §1983 authority with a similar
fact pattern. Where in this great nation can a citizen convicted of a felony offense
after being deprived a fair trial not have an available process whatsoever to seek
redress for the violation of his fair trial rights?

l%Carey v. Saffold, 536 U.S. 214. 219 (2002). Outdated citations may be found in Case v.
Nebraska. 381 U.S. 336. 338 n. 13 (1965)(Clark, J., concurring); id. at 345 n. 8 (Brennan,
J, concurring); Reitz, C.J., Federal Habeas Corpus: Postconviction Remedies for State
Prisoners, 108 U. Pa. L. Rev. 461, 469-70 (1960); Effect of the Federal Constitution in
Requiring State Postconviction Remedies, 53 Colum. L. Rev. 1143 (1953); State
Postconviction Remedies, 61 Colum L. Rev. 681 (1961); State Postconviction Remedies
and Federal Habeas Corpus, 40 N.Y.U. L. Rev. 154 (1965); State Postconviction
Remedies and Federal Habeas Corpus, 12 Wm. & Mary L. Rev. 149 (1970); The Uniform
Postconviction Procedure Act, 69 Harv. L. Rev. 1289 (1956). See also American Bar
Association Standards Relating to Postconviction Remedies (1978)(collecting and
analyzing modem approaches to state postconviction procedures); National
Commissioners on Uniform State Laws, Uniform Postconviction Procedures Act (1966)
(model statute).
19Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40. 59 (1999).
13

Of course, Weber or this Court cannot point to a precise fact-specific
authority. In most circles the very question invites incredulous scorn and its premise
is presumptuously preposterous. That the truism that everyone has their “one and
only appeal” appears to have a single exception — Weber — cannot be held against
him. As Justice Stevens noted, the citizens right to access an impartial tribunal to
seek redress for official grievances is so fundamental and so well established that it
is sometimes taken for granted.20 It is impossible to juxtapose with any semblance
of fairness Weber’s plight with that of, let’s say, a discharged public employee who
was denied due process at his predetermination hearing (as Weber was denied due
process at his “pre-conviction hearing”,) had a right to seek redress of that due
process violation (as Weber had a right to seek redress at his due process violation
but was denied any opportunity to do so), as well as a right to seek further redress in
federal court (unlike Weber according to the Third Court’s decision).21 This is
nonsensical.
While this Court has long recognized that states have an interest in securing
the finality of their judgments, finality is not a stand-alone value that trumps a state’s
overriding interest in ensuring that justice is done and its courts are secured to its
citizens.22 Weber is surely entitled to less than “the full panoply of rights” that would

20Woodward v. Ngo, 548 U.S. 81. 104 (2006).
21See generally, Reilly v. City ofAtl. City, 532F.3d216 (3d Cir. 2008).
22D.A. ’s Office for the Third Judicial Circuit v. Osborne, 557 U.S. 52. 98 (2009).
14

be due a criminal defendant prior to conviction. That does not mean, however, that
pretrial due process cases have no relevance in the postconviction context.23 The
postconviction process cannot offend some principle of justice so rooted in
traditional values as to be ranked as fundamental or transgresses any recognized
principle of fundamental fairness.24
Deprivations of Remedies Indisputable:
Weber’s Constitutional Due Process
and Fair Trial Rights are Illusory Without Remedy for Redress
Notwithstanding Delaware’s blanket rules, laws and constitutional provisions
mandating a remedy to redress violations of fair trial and due process rights, it is
beyond dispute the defendants have sacrificed Weber's privilege by undermining
well-established practices of postconviction processes designed to ensure adherence
to the Bill of Rights and the Delaware Constitution.25 The defendants, on the other
hand, cite a 2009 Delaware Supreme Court case to support their misguided theory
that Weber did have the remedies of Supreme Court Criminal Rule 35(a) and
certiorari.26 However, the decision is not controlling as it originates from a wholly
distinct case. It is non-dispositive at is it amounts to nothing more than dicta. And it
has proven to be in error.

23Id. at 95.
24Id. at 69.
25See infra., Delaware's Constitution, Statutes, Rules, Customs & Practices Demand a Post
Trial Due Process Review.
26Weber v. State, 971 A.2d 135 (Del. 2009).
15

In the first instance, the literally thousands of decisions regarding Rule 35 and
certiorari unanimously agree they are not available remedies to challenge the
constitutionality of a conviction. Indeed, not a single Delaware authority says
otherwise. Two, when Weber did attempt to utilize the remedies of Rule 35 and
certiorari, the Delaware courts held these remedies were not available to him. Three
and most dispositively, several months ago the Delaware Supreme Court pivoted
and acknowledged Weber did not have the remedies of Rule 35 and certiorari
available.27 QED. As to the related question — although entirely different question
raised in this matter — of whether the suspect and unchallengeable conviction may
be used to enhance a subsequent sentence, the Delaware Supreme Court
unfathomably passed the buck to the federal judiciary.28 This is further evidence of
the appellees’ flagrant disregard of Weber’s constitutional rights with respect to his
forgery conviction.
Due Process Requires Vindication of Fair Trial Violations
The right to claim a violation of a constitutional provision in a manner that
will be recognized by the courts is also embedded in those rights recognized by the
Constitution’s text and our interpretations of it. Without the ability to access the

27Weber v. State, 213 A.3d 1195 (Del. 2019)(“We do not question that the issue Weber
again seeks to raise is a serious and important one... [Weber's] consequences [] lead [ ] one
to ask whether there ought to be some mechanism for appellate review of the predicate
conviction.).
2Hd. at FN. 17.
16

courts and draw their attention to the constitutionally improper behavior, all of — us
prisoners and free citizens alike — would be deprived of the first and often only
“line of defense” against constitutional violations.29
The right to petition the government for redress of grievances traditionally
involve access to the courts.30 The Bill of Rights was created with the inherent
understanding there would be a process to vindicate the violation of the rights
promulgated. The constitutional requirement of due process in a criminal
prosecution is not satisfied by formal compliance or merely procedural regularity,
and a state must give one whom it deprives his freedom the opportunity to open an
inquiry into the intrinsic fairness of the criminal process even though it appears
proper on the surface.31 Certainly, Weber's complaint demonstrates the deprivation
of interests which require due process protection.
It is clear that the United States Constitution does not guarantee a right to
appeal a state law criminal conviction.32 This Court has also held that states have
no obligation to provide for a postconviction process.33 This Court, however, has
29Bounds v. Smith, 430 U.S. 817 (1977).
30Jutowski v. Twp. ofRiverdale, 904 F.3d 280. 294, n. 17 (3d Cir. 2018).
31 Carter v, Illinois, 329 U.S. 173. 174-76 (1946).
32McKane v. Durston, 153 U.S. 684. 687 (1894)(“A review by an appellate court of the
final judgment in a criminal case, however grave the offense of which the accused is
convicted, was not at common law, and is not now, a necessary element of due process of
law. It is wholly within the discretion of the state to allow or not to allow such a review.”).
33Pennsylvania v. Finley, 481 U.S. 551. 557 (1987); see also Dist. Attorney’s Office for
Third Judicial Dist. v. Osborne, 557 U.S. 52. 89 (2009)(“States are under no obligation to
provide mechanisms for postconviction relief... ”).
17

specifically held that “the States must afford prisoners some *clearly defined
method by which they may raise claims of denial offederal rights.”34 35 Why?
34Case v. Nebraska, 381 U.S. 336. 337 (1965Xciting Young v. Ragen, 337 U.S. 235. 239
(1949).
35See generally Case v. Nebraska, 381 U.S. 336. 337-47 (1965)(Brennan and Clark, J.J.,
concurring); United States ex rel. Herman v. Claudy, 350 U.S. 116. 119 (1956); Young v.
Ragen, 337 U.S. 235 (1949); Grigsby v. Mabry, 637 F.2d 525 (8th Cir. 1980); Gibson v.
Jackson, 578 F.2d at 1048-49 (addendum of Rubin, J.); Hart v. Eyman, 458 F. 2d 334. 340
(9* Cir.) cert, denied, 407 U.S. 916 (1972); Huchanan v. United States ex rel. Reis, 379
F.2d 612 (5th Cir. 1967)(Suggesting the invalidity of state procedural rules or devices that
are designed or serve to frustrate the adequate litigation of federal constitutional claims,
are, e.g. Ford v. Georgia, 498 U.S. 411. 423 (1991)(refusing to recognize default of state
procedural rule with which petitioner could not reasonably have been expected to comply);
Terrell v. Morris, 493 U.S. 1. 2 (1989Xsimilar); Ward v. Commissioners ofLove County,
253 U.S. 17. 22 (1920)(“It therefore is within our province to inquire...whether the
[federal] right was denied [by state court] in substance and effect, as by putting forward
nonfederal [procedural] grounds of decision that were without any fair or substantial
support”); Enterprise Irrigation Dist. v. Canal Co., 243 U.S. 157, 164 (1917)(adjudication
of federal claim may not be frustrated by “mere device to prevent a review of the decision
upon the federal question”). See also Beavers v. Sqffle, 216 F.3d 918. 923 (10th Cir.
2000)(“State procedural rules that bar habeas review of ineffective assistance claims are
viewed ‘with a healthy degree of skepticism.’”) See generally Bandon L. Garrett & Lee
Kovarsky, Federal Habeas Corpus: Executive Detention and Post-Conviction Litigation
(2013); 7 Wayne R. LaFave, Jerold H. Israel, Nancy J. King & Orin S. Kerr, Criminal
Procedure §28.3 (3d ed. 2007 & Supp. 2012-13); Ronald P. Sokol, Federal Habeas Corpus
341-43 (2ed. 1969); James A. Albert & Gregory A. Brobeck, Habeas Corpus - A Better
Remedy in Visitation Denial Cases, 41 Maine L.Rev. 239 (1989); Marc M. Arkin, Speedy
Criminal Appeal: A Right Without a Remedy, 74 Minn. L.Rev. 437 (1990); Vivian Berger,
Herrera v. Collins: The Gateway of Innocence for Death-Sentenced Prisoners Leads
Nowhere, 35 Wm. & Mary L.Rev. 943 (1994); John Flannery, Habeas Corpus Bores a
Hole in Prisoners’ Civil Rights Actions - An Analysis ofPreiser v. Rodriguez, 48 St. John’s
Rev. 104 (1973); Luis Kutner, World Habeas Corpus and Humanitarian Intervention, 19
Val. U. L.Rev. 593 (1985); Warren Lupel, Recanted Testimony: Procedural Alternatives
for Relieffrom Wrongful Imprisonment, 35 DePaul L.Rev. 477 (1986); Robert Plotkin,
Rotten to the “Core of Habeas CorpusThe Supreme Court and the Limitations of a
Prisoner’s Right to Sue; Preiser v. Rodriguez, 9 Crim. L. Bull. 518 (1973); Martin A.
Schwartz, The Preiser Puzzle: Continued Frustrating Conflict Between the Civil Rights
and Habeas Corpus Remedies for State Prisoners, 37 DePaul L.Rev. 85 (1988); Robert J.
Sharpe, Habeas Corpus Extradition and the Burden ofProof: The Case of the Man Who
18

Because mistakes like those in Weber’s case are much more frequent than most
people are comfortable to acknowledge.36
This Court has consistently held that defendants have a constitutional right to
meaningful access to state postconviction courts.37 The right of access to the courts
is founded in the Due Process Clause and assures that no person will be denied the
opportunity to present to the judiciary allegations concerning violations of
fundamental constitutional rights.38 “It is clear that ready access to the Courts is
one of, perhaps the, fundamental constitutional rights. ”39

Escapedfrom Devil’s Island, 49 Cambridge L.J. 422 (1990); Scott Singer, “7b Be or Not
to Be: What is the Answer? The Use of Habeas Corpus to Attack Improper Prison
Conditions, 13 New Eng. J. on Crim. Civ. Confinement 149 (1987); Development in the
Law - Federal Habeas Corpus, 83 Harv. L.Rev. 1038, 1055-62, 1216 (1970); The Effect
of Violations of the Interstate Agreement on Detainers on Subject Matter Jurisdiction, 54
Fordham L.Rev. 1209 (1986); Federal Habeas Corpus Review of Nonconstitutional
Errors; The Cognizability of Violations of the Interstate Agreement on Detainers, 83
Colum. L.Rev. 975 (1983); Habeas Corpus, Section 1983 and State Prisoners’ Litigation
Preiserv. Rodriguez in Retrospect, 1977U. Ill. L.F. 11953; State Prisoners’ Suits Brought
on Issues Dispositive of Confinement: The Aftermath ofPreiser v. Rodriguez and Wolffv.
McDonnell, 11 Colum. L.Rev. 742 (1977); Benjamin Vetter, Habeas, Section 1983, and
Post-Conviction Access to DNA Evidence, 71 U.Chi. L.Rev. 587 (2004).
36Jordan M. Steiker, James W. Marcus, & Thea J. Posel, The Problems ofRubber-stamping
in State Capital Habeas Proceedings: A Harris County Case Study, 55 Hous. L. Rev. 889
(2018); Carlos M. Vauez & Stephen I. Vladeck, The Constitutional Right to Collateral
Postconviction Review, 103 Va. L. Rev. 905 (2017); authority cited infra. 7.2 n. 1
37Bounds v. Smith, 430 U.S. 817. 825 (1977). (“due process right to reasonably adequate
opportunity to present claimed violations of fundamental rights to the courts”). Accord
Lewis v. Casey, 518 U.S. 343. 350 (1996). See also Christopher v. Harbury, 536 U.S. 403.
412 (2002).
38Wolffv. McDonnell, 418 U.S. 539. 579 (1974).
39Cruz v. Hauck, 475 F.2d 475. 476 (5th Cir. 1973). Accord McCarthy v. Madigan, 503’
U.S. 140.153 (1992); Tick Wo v. Hopkins, 118 U.S. 356.370 (1886); See Bounds v. Smith,
430 U.S. 817 (1977). See also Tennessee v. Lane, 541 U.S. 509. 533 (2004).
19

Due process requires an opportunity to be heard “at a meaningful time and in
a meaningful manner. ”40 Criminal process is lacking where it “offends some
principle of justice so rooted in the traditions and conscience of our people as to be
ranked as fundamental.”41 A procedure for post-conviction relief can fairly be
termed inadequate when it is so configured as to deny a convicted defendant any
opportunity for judicial rectification of so fundamental a defect in his conviction.42
What, then, should the Court say in Weber’s circumstances, where he had no
opportunity to be heard whatsoever and enjoyed no process whatsoever in which to
challenge his forgery conviction? And where that conviction was used to enhance
Weber’s sentence from a 3-year minimum mandatory to a 25-year minimum
mandatory? This Court seemingly recognizes:
“It is beyond dispute that convictions must be obtained in
a manner that comports with the Constitution....it
necessarily follow[s]....our system affords a defendant
convicted in state court numerous opportunities to
challenge the constitutionality of his conviction. ”43
Not only did Weber not have “numerous opportunities” to challenge the
constitutionality ofhis conviction, he was deprived of any remedy whatsoever despite
numerous Delaware laws and rules mandating one. This Court must enforce its

40Matthews v. Eldridge, 424 U.S. 319. 333 (1976).
41 Herrera v. Collins, 506 U.S. 390.408 (1993)(citing quotations omitted).
42In re Davenport, 147 F.3d 605. 611 (1st Cir. 1998).
43 Uni ted States v. Napolitan, 830 F.3d 161. 165-66 (3d Cir. 2016), quoting Daniels v.
United States, 532 U.S. 374.381-82 (2001).
20

declaration announced in Napolitan.
While it is true that the constitutional protection in state postconviction
proceedings are less stringent than at trial or on direct review,44 the Supreme Court
has never held or suggested that the Due Process Clause does not apply to these
proceedings and must comport with the “fundamental fairness mandated by the Due
Process Clause. ”45
“Postconviction relief procedures are constitutional if
they compor[t] with fundamental fairness....Federal
courts may upset a State’s postconviction relief
procedures only if they are fundamentally inadequate
to vindicate the substantive rights provided. ” 46
The right of access to the courts is an aspect of the First Amendment right to
petition the government for redress of grievances.47 Accordingly, the Constitution
guarantees that Weber, like all citizens, have a reasonably adequate opportunity to
raise constitutional claims before impartial judges.48 Moreover, because access to
the courts is fundamental right, government-drawn classifications that impose
substantial burdens on the capacity of a group citizens to exercise that right require
searching judicial examination under the Equal Protection Clause.49

44e.g. Pennsylvania v. Finley, 481 U.S. 551. 555-557 (1987).
45Id. at 556-557; see also Murray v. Giarratano, 492 U.S. 1.8 (1989)(opinion of Rehnquist,
C.J.).
46D. A. 's Office for the Third Judicial Circuit, 557 U. S. 52. 69 (2009).
41Bill Johnson's Restaurants, Inc. v. NLRB, 461 U.S. 731. 741 (1983).
4SLewis v. Casey, 518 U.S. 343. 351 (1996).
49Lyng v. Automobile Workers, 485 U.S. 360. 370 (1988).
21

Weber's Right to Assert his Claim of the Denial of any Opportunity
for Redress to Seek for Constitutional Violations via 42 U.S.C. $1983
Monroe v. Pape set forth the applicable principles in play here.50 §1983
reaches those abuses of state authority that are forbidden by the State's constitution
of statutes or common law.51 It provides relief not only “where the state law was
inadequate,” “but also provide a federal remedy where the state remedy, though
adequate in theory, was not available in practice.”52
There are three kinds of §1983 claims that may be brought against the State
under the Due Process Clause of the Fourteenth Amendment, all of which are
applicable to Weber's complaint. One, §1983 allows Weber to bring suit for
violations of his protections enumerated in the Bill of Rights.53 Two, the substantive
component of Due Process bars certain are arbitrary, wrongful government actions
“regardless of the fairness of the procedures used to implement them.”54 Three, the
procedural component of Due Process requires Weber from the mistaken or
unjustified deprivation of life, liberty, and property.55 When a postconviction process
is not available, an alternative [ ] to pursuing claim in a federal habeas corpus
petition, the petitioner might present the claim to a federal court in a separate (albeit,

50365 U.S. 167 09611.
5lZinerman v. Burch, 494 U.S. 113. 124 (1990).
52Id., quoting Monroe at 173-74.
53Zinerman, 494 U.S. at 125.
54Daniels v. Williams, 474 U.S. at 331.
55Parratt, 451 U.S at 537.
22

possibly, simultaneous) civil rights under 42 U.S.C. 1983.”56 Reiterating that “[o]ur
system of law has always endeavored to prevent even the possibility of unfairness,57
the Supreme Court emphasized the Due Process Clause is exercised to adequately
vindicate individual rights58 and allow all those concerned a fair hearing of the state
law claims.59
The protection of the Due Process Clause applies to rights which have accrued
to one under existing rules of law and have become vested, and such rights cannot
be taken away by a change in the rules or remedies. Arbitrary and unreasonable
abolishment of a right of action to redress injury to these central rights of person or
property falls within the prohibition of the Due Process Clause, and the legislature
may not abolish a remedy given by the common law to essential rights without
affording another remedy substantially adequate.
Whether acting through its judiciary or through its legislature, a state may not
deprive a person of all existing remedies for enforcement of a right, which a state
has no power to destroy, unless there is, or was, afforded some real opportunity to

56Hertz, R. & Liebman, J. S., Federal Habeas Corpus Practice and Procedure, Part II:
Timing of Federal Habeas Corpus Petition; State Remedies; Volume 1: Chapter 7: State
Remedies: Professional and Constitutional Issues: §7.1 “Full and Fair” Proceedings [b]
Constitutional Considerations and Fn. 94. (Copyright © 2019 Matthew Bender &
Company, Inc., Release No. 11, December 2019).
57In re Murchison, 349 U.S. 133. 136 (1955).
5%McGautha v. California, 402 U.S. 183.255 (1971) and allow all those concerned to fair
hearing of their state law claims.
59Id. at 256.
23

protect it.60 No principled distinction may be made between Wilkinson v. Ohio Dept,
ofRehab. & Corr.61 and Weber. In Wilkinson, the petitioners challenged the state’s
parole procedures under §1983 where a favorable judgment would not necessarily
invalidate the conviction or sentence.

Here, Weber challenges the state’s

postconviction procedures where a favorable judgment would not invalidate his
conviction or sentence. In all actuality, Weber’s situation is much more egregious
as not only are his procedural due process rights implicated, but his rights to
substantive due process, a fair trial, access the courts and petition his government
have been violated as well.
Weber has been subjected to the most fundamental of injustices. It is readily
apparent that under Weber's specific circumstances that Delaware's postconviction
relief procedures are fundamentally inadequate to vindicate his substantive rights,
and that these procedures (or lack thereof) “offends some [fundamental] principle of
justice” or “transgresses any recognized principle of fundamental fairness.62 Of
course, §1983 is not itself a source of substantive rights. It is, however, a means of
vindicating federal rights established elsewhere, primarily in constitutional law.63 It
is difficult to imagine a right more fundamental than the right to seek redress for

60Richards v. Jefferson County Ala., 517 U.S. 793 (1996).
61544 U.S.74 (2005Y
62Medina v. California, 505 U.S. 437. 446 (1992).
63Albright v. Oliver, 510 U.S. 266.271 (1984), quoting Baker v. McCollan, 443 U. S. 137.
144, FN. 3(1979).
24

violations of fair trial rights which resulted in severe direct and collateral
consequences.
Violations of Weber’s Procedural & Substantive Due Process Rights
The Due Process Clause of the Fifth Amendment provides that “No person
shall be deprived of life, liberty, or property, without due process of law.” The Court
has held that the Due Process Clause protects individuals against two types of
government action. So-called “substantive due process” prevents government from
engaging in conduct that “shocks the conscience,” or interferes with rights “implicit
in the concept of ordered liberty.” When government action depriving a person of
life, liberty, or property survives substantive due process scrutiny, it must still be
implemented in a fair manner. This requirement has traditionally been referred to as
“procedural” due process.” Obviously, the procedural due process requirements in a
particular case are dependent upon the importance of the interest involved and the
circumstances under which the deprivation of liberty may occur. It is impossible to
conjure a more important liberty interest under the circumstances presented here.
The right of access to the courts is protected by the due process clauses of the Fifth
and Fourteenth Amendments, and assures that no person will be denied an
opportunity to present to the judiciary allegations concerning violations of
fundamental constitutional rights. Two categories of federal due process protections
under the Fourteenth Amendment which are redressable under §1983 are specific
25

protections defined in the Bill of Rights; substantive due process, which prohibits
certain arbitrary government actions regardless of the fairness of the procedures
uses; and procedural due process or the guarantee of fair procedure. Weber’s
circumstances implicate each. Delaware’s postconviction scheme does not comport
with the Fourteenth Amendment. Thus, the procedural due process framework of
either Mathews or Medina governs this §1983 claim. 64
As for procedural due process, it concerns the constitutionality of the
procedures employed to deny a person's life, liberty or property, and procedural due
process rules are meant to protect persons not from deprivation, but from mistaken
or unjustified deprivation of life, liberty, or property. Although no one has a vested
interest in a rule of law as such or in any particular form of remedy, withdrawal or
change of remedy, in violation of interests already vested or in impairment a
substantial right constitutes a denial of due process.
United States v. Mendoza-Lopez65 reiterated that where a determination made
in an administrative proceeding plays a critical rule in the subsequent imposition of
a criminal sanction, there must be some meaningful review of the administrative
proceeding. Mendoza was predicated on 18 U.S.C. §1326, which includes as an
element of that offense the deportation of the alien-defendant. Mendoza affirmed the

MNelson v. Colorado, 137 S.Ct. 1249. 1255-63 (2016).
65481 U.S. 829. 837-38, 841 (1987).
26

practice of permitting a challenge to the validity of a deportation order at the
subsequent criminal proceeding. Due process demands some meaningful review.
Weber is obviously entitled to at least the same due process protections as the aliendefendant. The appellees were duty bound not to frustrate adjudication of Weber's
federal claims.66
Moreover, “the due process clause contains a substantive component that bars
certain arbitrary, wrongful government actions ‘regardless of the fairness of the
procedures used to implement them. ’”67 Official conduct violates substantive due
process if it “is so egregious, so outrageous, that it may fairly be said to shock the
contemporary conscience. ”68

It should brook no debate that the defendants,

government officials responsible for implementing postconviction procedures who
failed their duty while contemporaneously deceiving Weber that there were
postconviction forums available to him, are culpable of arbitrary, egregious and
outrageous conduct which would shock any conscience. Indeed, Weber has found
it nearly impossible to convince anyone that he has no remedy at his disposal to

66Grigsby v. Mayberry, 637 F.2d 526. (8th Cir. 1980); Gibson v Jackson, 578 F.2d at 104
(addendum of Rubin, J.); Hart v. Eyman, 458 F.2d 334. 340 (9th Cir.) cert, denied, 407
U.S. 916 (1972); Buchanan v. United States ex rel Reis. 379 F.2d 612 (5th Cir. 1967); Ford
v. Georgia, 498 U.S. 411. 423 (1991); Terrell v. Morris, 493 U.S. 1. 2 (1989); Ward v.
Commissioners ofLove County, 253 U.S. 17 (1920); Enterprise Irrigation District v. Canal
Co., 243 U.S. 157. 164; (1917); Beavers v. Sqffle, 216F.3d918. 923 (10th Cir. 2000).
67Zinermon v. Burch, 494 U.S. 113 (1990).
6SEvans v. Sec’y of Dept, of Corr., 645 F.3d 650. 660 (3d Cir. 2011), citing City of
Sacramento v. Lewis, 523 U.S, 833. 847 n.8 (1988).
27

vindicate the violation of the most basic and fundamental of rights to a fair trial due
to its sheer implausibility.
There is a recognition of the equal obligation of the state courts to protect the
constitutional rights of criminal defendants in order prevent needless friction
between the state and federal courts.69 Moreover, at least some measure of due
process extends to the postconviction process.70 One of the primary purposes of
§1983 was to provide a remedy “against those who representing a State in some
capacity were unable or unwilling to enforce a state law.”71 There can be no question
Weber has firmly established the particular interests at issue here — the right to a
fair trial — is protected by the substantive Due Process Clause and the appellee’s
deprivation of that protected interest shocks the conscience. Indeed, “shocks the
conscience?”
Weber’s circumstances are tantamount to our tradition of affording “serious
consideration in judging whether a challenged rule or practice, or the failure to
provide a new one, should be seen as violating the guarantee of substantive due
process as being arbitrary, or as failing wholly outside the realm of reasonable
governmental action.”72 Weber, who seeks enforcement of a federal right against

69Staretz v. Ishee, 389 F.Supp. 2d. 858 (S. D. Ohio 2005)
10Ohio Adult Parole Authority v. Woodard, 523 U.S. 272 (1998).
llMonroe v. Pape, 365 U.S at 175-76.
12Poe v. Ullman, 367 U.S. 497. 542 (1961)(Harlan, J., dissenting).
28

the state, should not be abandoned by this Court if any reasonable remedy can be
fashioned.73
Delaware's Constitution, Statutes, Rules, Customs and
Practices Demand a Post-Trial Due Process Review
Delaware does have due process remedies to vindicate the fair trial violations
suffered by Weber. The appellees, however, not only refuse these remedies to Weber
but pursued a course of actions to circumvent these constitutional and statutory
provisions by way of bureaucratic fiat.
There is no dispute Weber did not have the right of appeal in light of Art. IV,
§ll(l)(b) of the Delaware Constitution.

The provision precludes appeal of

convictions where the sentence does not include a fine, restitution, probation, or
prison sentence excluding 30 days.74

However, 11 Del.C. §4504(a), entitled

“Postconviction Remedy,” provides for due process review to those claiming their
innocence.7511 Del.C. §5121(b) provides that criminal due process rules “shall not
abridge, enlarge or modify the substantive rights of any person, and shall preserve
the right of trial by jury as at common law and as declared by the statutes and
Constitution of this State.” 11 Del.C. §§103,201 affords additional protections. The

73Robinson v. Pratt, 497 F.Supp. 116. 122 (D.Mich. 1980).
74Weber v. State, No. 592,2001, 2002 WL 31235418 (Del. Oct. 4 2002).
75Except at a time when direct appellate review is available, and subject to the time
limitations set forth in this subsection, a person convicted of a crime may file in the court
that entered the judgment of conviction a motion requesting the performance of forensic
DNA testing to demonstrate the person’s actual innocence.
29

authorized criminal rules state they “are intended to provide for the just
determination of every criminal proceeding”76 and proscribe procedures to ensure
those just determinations.77 All of these rules were implemented to ensure
meaningful and adequate review of Weber's criminal conviction, all of which were
denied to him.
Judicial power is the “irreducible inherent authority fundamental to the
essence of a court without the courts would cease to function for which they are
established.78 Delaware’s law also provides a mechanism for “general” judicial
review. In Curran v. Wooly79 the court found “the state must provide for the
protection of constitutional rights [ ] by simple motion brought the court of original
jurisdiction,” which is precisely what Weber did. It is an essential function of the
Constitution to give a defendant a reasonable opportunity to obtain a reliable judicial
determination of the fundamental legality of his conviction and sentence.80 Indeed
Delaware has recognized “[It] is certainly correct that [defendants are] entitled under
federal law to an adequate postconviction remedy... ”81 In the criminal context, the

76Super.C.Crim R.2.
77Super.C.CrimR. 37,61. See also Del.Supr.CT.R. 26.
United States v. Dunegan, 251 F.3d 477.478 (3d Cir. 2001).
79104 A.2d 771. 774 (1954).
mCarafas v. Lavallee, 391 U.S. 234. 238 (1968); Price v. Johnston, 334 U.S. 266. 283
(1948).
81Jones v. Anderson, 183 A.2d 177. 179 (Del. 1962).
30

court can “entertain no doubt that the decision must be reviewable”82 with respect to
appellate or postconviction review. “We suggest that it might be appropriate for the
Superior Court to adopt the rule dealing specifically with application of this sort. ”83
Any premise that the State is not required to afford any corrective judicial process
to remedy an alleged wrong involving due process is simply and plainly “wrong. ”84
Significantly, other state constitutional provisions come into play which mandate a
constitutional review of Weber's forgery conviction other than a direct appeal. Art.
1 §9 of the Delaware Constitution provides that all courts shall be open; and every
person for an injury done him or her in his or her reputation, person, movable or
immovable possessions shall have remedy by the due course of law, and justice
administered according to the very right of the cause and law of land without suit,
denial or unreasonable delay or expense. Art. 1 §16 empowers citizens to apply to
persons entrusted with the powers of government, for redress of grievances or other
proper purposes, by petition, remonstrance or address. This includes the right to
present to a sovereign a petition or a remonstrance setting forth a protest or grievance
arising out of governmental action. Art. 1 §13 provides that the privilege of the writ
of habeas corpus shall not be suspended.
Art. 1 §13 of the Delaware Constitution in conjunction
with Title 10, 6901 and Title 10, 6902 of the revised code
82M
83M 179-80.
MMooney v. Holohan, 294 U.S. 103. 113 (1935).
31

of 1953, conferred jurisdiction upon this court to hear an
issue the writ of habeas corpus in a proper case. However,
no settle practice things to have been developed in the state
governing this type of proceeding.
The Delaware Supreme Court has long has long reaffirmed the principle that
some type of review is required to test the constitutionality of a conviction:
“It is now settled by the Supreme Court of the United
States that a state must provide an adequate procedure
to give a person deprived of his freedom the
opportunity to have the intrinsic fairness of the
criminal process under which he is committed
examined into, even though it appears proper and
regular on its face. »85
The Delaware Supreme Court reiterated that a “defendant is free to pursue
other remedies available to him to re-examine into the legality of his conviction.
Such as the rule in Delaware and such, also, was rule in the federal courts under the
Judicial Act of 1789.”86
Noting that no direct appeal or other specific remedy is required, the Delaware
Supreme Court nonetheless recognized the requirement laid down by the Supreme
Court of the United States as the guide to the states and establishing a procedure for
the reexamining of sentences is that must be available and adequate. The Delaware
Supreme Court has held the state must provide for the protection of constitutional
rights through habeas corpus, coram nobis, or by the simple motion brought in the

85Curran v. Wooly, 104A.2d 771. 774 (Del. 1954).
86M at 774.
32

court of original conviction.87 Of course, Weber was not afforded any of these
protections. Under Art. I, “the courts have a duty to afford a remedy for every wrong;
the volume of cases, danger of fraudulent claims, or difficulty of proof do not
eliminate the requirement.”88 Recognizing this duty, James v. State89 noted that any
convicted defendant has “standing” and a “right” to assert a claim through a variety
of options, including direct appeal, correction of an illegal sentence, and
postconviction petitions.” Again, Weber was denied any of these remedies.
Obviously, Weber has suffered the most significant of infringements on his freedom
and he was due a process to bring his grievances before a judicial body. Creating a
more efficient judicial system plainly constitutes a legitimate purpose.90 In Weber’s
case, Delaware has plainly abandoned this tenet.
The fact the state did not provide Weber a specific process for redress does
not alter the fact the Delaware constitution demands one. Weber thus invoked the
Superior Court’s inherent and/or equitable jurisdiction and authority. Specifically:
“Courts are generally afforded inherent powers to
undertake whatever action is reasonably necessary to
ensure the proper administration of justice. This court has
consistently held that Delaware courts have the inherent
power to vacate, modify or set aside their judgments

87M
88Young v. Red Clay Consolidated School District, 122 A.3d 784 (Del Ch. 2015), quoting
Holland R., Delaware State Constitution at p. 65.
891998 Del. C.P. LEXIS 39 (Del. Com. PL).
90Id.
33

orders.”91
Moreover, the Delaware Superior Court rules are modeled after the Federal
Rules of Civil Procedure, and thus are largely the same. For that reason, where
Delaware case law is silent, the Delaware Courts have looked at federal case law, as
well as case law from other jurisdictions for guidance.92 The federal counterpart to
Super.C.Civ.R. 60 allows for postconviction challenges under “extraordinary” or
other circumstances.93 Super.C.Crim.R. 57 cements the Superior Court’s authority
to entertain a postconviction challenge by allowing use of the civil rules where
“appropriate.” Yet again, the appellees’ denied these protections to Weber.
Furthermore, the United States Supreme Court has held state courts “have inherent
authority and are thus presumptively competent to adjudicate claims arising under
the laws of the United States.94 The Delaware Supreme Court has held as a last
resort a defendant may file a “simple motion” for redress of constitutional
violations.95 That is, except for Paul Weber.

91 State v. Guthman, 619 A,2d 1175. 1178 (Del. 1993) (emphasis added). See also State v.
Slowman, 866 A.2d 1257.1265 (2005); State v. Remedio, 108 A.3d326 (Del. Super. 2014);
State v. Johnson, 2006 WL 3872849 (Del. Super); State v. Walls, 2006 WL 2950491 at *2;
Hewitt v. State, 2014 WL 5020251 at *1 (Del.); In re Nichols, 2004 WL 1790142 at *1
(Del. Super.); Sample v. State, 2014 WL 193761 *1 (Del.); State v. Reed, 2014 WL
7148921 at *3 (Del. Super).
92Johnson v. Preferred Professional Inc. Co., 2014 Del. Super. LEXIS 28 (Del. Super. Feb.
17, 2014).
93Buck v. Davis, 137S.Ct. 759. 777-78 (2017).
9*Tafflin v. Levitt, 493 U.S. 455. 458-59 (1990); see also Bowling v. Parker, 882 F.Supp.
2d 891. 901 (E.D. Ky. 2012).
95Jones v. Anderson, 183 A.2d 177 (Del. 1962).
34

The United States Constitution Demands the State to Provide
Redress for the Violation of Rights Enumerated in the
Bill of Rights and to Enforce Their Own Postconviction Laws
The evolution of constitutional requirements of state postconviction remedies
was eloquently linked to the rule of law and the right to access to the courts in Boddy
v. Connecticut,96 and greatly expanded the protections of post-trial proceedings.
Douglas v. California held the right to counsel applied to first appeals of right.97
Ross v. Moffitt, declining to extend Douglas to discretionary appeals, nevertheless
restated the constitutional requirements of
present... claims fairly in the context of the

“an adequate opportunity to

appellate process.”98 Pennsylvania v.

Finley reiterated the equal protection guarantee of “meaningful access.”99 Smith v.
Bennett barred the state’s refusal to docket postconviction petitions to indigents who
could not pay the filing.100 Johnson v. Avery ruled a prison regulation prohibiting
prison inmates from assisting each other unconstitutional.101 Precunei v. Martinez
invalidated a prison ban on law student and paralegal interviews.102 Bounds v. Smith
ruled a state must provide postconviction litigants with a reasonably adequate
opportunity to present claimed violations of fundamental constitutional rights to the

96401 U.S. 371. 374 (1971).
97372 U.S 353. 356 (1963).
98417 U.S. 600 (19741.
"481 U.S. 551 (19871.
1003 65 U.S. 708(19611.
101393 U.S. 483 (1969).
1Q2416 U.S. 396 (19741.
35

courts. 103 Martinez v. Ryan excuses procedural defaults to uncounseled post­
conviction litigants.104 The list goes on. To say, then, that Weber enjoyed no right to
a review to begin with would be the ultimate non-sequitur. If this Court has
determined that it would be inequitable to refuse to hear a defaulted claim when the
State had channeled that claim to a forum where the prisoner might lack the
assistance of counsel in raising it,105 how can it be equitable to deny Weber any
forum whatsoever in which to seek redress of substantive constitutional violations
as presented here?
There is a “presupposed[ion] that a criminal defendant has given the state trial
and appellate courts an opportunity to pass on his constitutional claims.”106 Of
course, the very point of recognizing any access claim is to provide some effective
vindication for a separate and distinct right to seek judicial relief for some wrong. 107
And of course, the absence of any corrective process would make the constitutional
promise of a fair trial a worthless thing. It was not until long after the Bill of Rights
was adopted that criminal defendants had either a right of appeal or a right to
challenge convictions by habeas corpus. 108

10343Q U.S. 817. 821-28 (1977).
104566 U.S. 1 120121.
105Martinez v. Ryan, 566 U.S.l (2012).
mMcCloskey v. Zant, 499 U.S. 467, 519 (1991).
107536 U.S. at 415-16.
108 e.g., McKane v. Durston, 153 U.S. 684. 687 (1894); Ex parte Watkins, 28 U.S. (3 Pet.)
193. 202-03 (1830).
36

It has long been recognized the Fourteenth Amendment precludes a state from
keeping a prisoner imprisoned if the state persists in depriving him of a type of
appeal generally afforded those convicted of crime.109 Appellate and post-conviction
courts reviewing the constitutionality of a state prisoner’s conviction and sentence
are guided by rules designed to ensure that state-court judgments are accorded the
finality and respect necessary to preserve the integrity of legal proceedings within
our system of criminal justice.110 There is a recognition that a defendant has at least
his “one and only appeal. ”in “Appellate review...helps promote uniformity by
‘tend[in] to iron out sentencing differences. >”112 « A system of appeal as of right is
established precisely to assure only those who are validly convicted have their
freedom drastically curtailed. ”113 A remedy is inadequate or ineffective “where the
petitioner demonstrates that some limitation of scope or procedure would prevent”
the petitioner from receiving adequate adjudication of his claims.114
The right to review takes on even greater meaning in the context of habitual
sentencing and its severe penalties. The basis for the constitutional distinctiveness
of prior convictions is not hard to see: unlike virtually any other consideration used

109Dowd v. United States, 340 U.S. 206, 209-10 (1951).
110Martinez v. Ryan, 566 U.S. 1. 9 (2012).
niColeman v. Thompson, 501 U.S.722. 756 (1991).
n2Peugh v. United States, 86 L.Ed.2d 84. 89 (2013), quoting Booker, 543 U.S. at 263.
U3Evitts v. Lucey, 469 U.S. 387. 399-400 (1985).
U4Henry v. United States, 525 Fed Appx. 67. 69 (3d Cir. 2013).
37

to enlarge the possible penalty for an offense “a prior conviction itself must itself
have been established through procedures satisfying the fair notice, reasonable
doubt andjury trial guarantees. ”115
It is well established a state action depriving a person of life or liberty
demands substantive due process scrutiny.116 The Constitution requires “an
opportunity...granted at a meaningful time and in a meaningful matter, ”117 « for a
hearing appropriate to the nature of the case. ”118 This Court presumes that a
wrongful state court conviction has continuing collateral consequences sufficient to
present a case or controversy. 119 Therefore, “it is settled that due process requires
that a defendant have notice and an opportunity to contest the validity or applicability
of the prior convictions upon which a statutory sentencing enhancement is based. ”120
Conclusion
A dog deemed unfit for the community and slated to be put down nevertheless
may have that decision reviewed.121 Any citizen found to be illegally parked may

n5United States v. Jones, 332 F.3d 688.695 (3d Cir. 2003), quoting Jones v. United States,
526 U.S. 227. 249 (1999).
neMatthews v. Eldridge, 424 U.S. 319. 335 (1976).
117Armstrong v. Manzo, 380 U.S. 545. 552 (1965).
usMullane v. Central Hanover Tr. Co., 339 U.S. 306. 313 (1950).
119Brown v. Gallegos, 58 Fed. Appx. 781.782 (10th Cir. 2002); e.g. Spencer v. Kemna, 523
U.S. 1.7-8 (1998), citing Sibron v. New York, 392 U.S. 40, 55 (1968).
l20United States v. Moore, 208 F.3d 411. 413 (2d. Cir. 2000), quoting Oyter v. Boles, 36
U.S. 448.452(1962).
1217 Del.C. §§1730-1740.
38

nevertheless appeal that decision.122 But incredibly, Paul Weber, who is confronted
with the ultimate loss of liberty - the imposition of a virtual life sentence123 - has no
opportunity to contest his fate based on a suspect felony conviction where Weber
adamantly proclaims his innocence and asserts he had an unfair trial. This sad and
tragic truth does not comport with any traditional notion of fair play or justice.
It is always assumed that defendants can “attack prior convictions in state
court. ”124 It is also assumed that state courts remain open to challenges to state court
proceedings that served as predicates to sentencing enhancements.125 And it has
long been accepted that a defendant may attack a conviction that is “presumptively
void.”126 “When a defendant, facing sentencing, sufficiently asserts facts that show
that an earlier conviction is “presumably void, the Constitution requires the
sentencing court to review this earlier conviction before taking it into account. ”127
Weber has been afforded none of these protections.
It is an unalterable fact that our judicial system, like the human beings who
administer it, is fallible.128 Even a prisoner who appears to have had a
1225 Del.C. §504(b)(2); 21 Del.C. §4183.
123Pursuant to 11 Del.C. §4214(a)(2004) the forgery conviction was used to declare Weber
a “habitual offender” in another case.
l24Pettiford v. United States, 587 F.Supp.2d 709.712 (D.Md. 2008), citing Custis, 511 U.S.
at 497.
125 United States v. Turner, 793 F.Supp.2d 495. 511 (D.Mass. 2011).
l26United States v. Roman, 989 F.2d 1117. 1120 (11th Cir. 1993)(en banc)(per curiam),
cert, denied 114 S.Ct. 2139 (1994).
127United States v Jackson, 57F.3d 1012. 1018 (11th Cir. 1995).
mHerrera, 506 U.S. at 415.
39

constitutionally perfect trial retains a powerful and legitimate interest in a remedy to
assert his innocence.129
“The American criminal justice system rightly sets the
ascertainment of truth and the protection of innocence as
its highest goals. The average school child is aware (or so
we hope) that the accused is clothed with a presumption of
innocence and that the prosecutor must prove beyond a
reasonable doubt that a crime was committed. “Moreover,
the concern with innocence does not end at trial.
Elaborate postconviction procedures are rightly in
place to ensure not only that a trial was fair, but also
that no individual has been wrongly convicted. ”130
As the Fourth Circuit Court acknowledged, it is well established that “the
concern with innocence does not end at trial” and “elaborate postconviction
procedures are rightly in place.” Except, that is, for Paul Weber.
Over 60 years ago this Court stated:
“All of the States now provide some method of appeal for
criminal convictions, recognizing the importance of
appellate review to a correct adjudication of guilt or
innocence. Statistics show that a substantial portion of
criminal convictions are reversed by state appellate
courts. ”131
Weber has proclaimed his innocence of the forgery offense, made a showing
that he was deprived of a fair trial, and never wavered in his monumental efforts to
have his conviction reviewed for constitutional infirmity. As Griffin declared:

119Herrera, 506 U.S. at 438-39.
130Harvey v. Horan, 285 F,3d 298.299 (4th Cir. 2002)(emphasis added).
mGriffim v. Illinois, 351 U.S. 12. 18-19 (1956).
40

“The admonition of de Tocqueville not to confuse the
familiar with the necessary has vivid application to
appeals in criminal cases. The right to an appeal from a
conviction for crime is today so established that this leads
to the easy assumption that it is fundamental to the
protection of life and liberty and therefore a necessary
ingredient of due process of law. »132
“Such a denial is a misfit in a country dedicated to
affording equal justice to all and special privileges to none
in the administration of its criminal law. ”133
Except, that is, for Paul Weber.
WHEREFORE, Petitioner Paul E. Weber respectfully requests this
Honorable Court to grant certiorari.

/s/Paul E. Weber
Paul E. Weber
VCC-162469 - Bldg. W
1181 Paddock Road
Smyrna, DE 19977
January 25, 2021

132Id. at 25.
133Id. at 19.
41

